h
■

■

/

)

Certificate of Service
No. 20-254
Kuang-Bao Ou-Young,
Petitioner
v.
John G. Roberts, Jr.,
Chief Justice of the United States
et al.,
Respondents
As required by Supreme Court Rule 29.4(a), I certify that three copies of the petition
for rehearing and a copy of this certificate were sent by priority mail, postage
prepaid, to the following parties:
Jeffrey B. Wall
Acting U.S. Solicitor General
U.S. Department of Justice, Room 5616
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
John G. Roberts, Jr.
Chief Justice
U.S. Supreme Court
1 First Street, NE
Washington, DC 20543

Anthony M. Kennedy
Retired Associate Justice
U.S. Supreme Court
1 First Street, NE
Washington, DC 20543

Ruth Bader Ginsburg
Associate Justice
U.S. Supreme Court
1 First Street, NE
Washington, DC 20543

Samuel A. Alito, Jr.
Associate Justice
U.S. Supreme Court
1 First Street, NE
Washington, DC 20543

Maxine M. Chesney
District Judge__
U.S. District Court
for Northern California
450 Golden Gate Avenue
San Francisco, CA 94102

William H. Orrick
District Judge
U.S. District Court
for Northern California
450 Golden Gate Avenue
San Francisco, CA 94102

-1-

Stephen G. Breyer
Associate Justice
U.S. Supreme Court
1 First Street, NE
Washington, DC 20543

Lucy H. Koh
District Judge,,
U.S. District Court
for Northern California
280 S. First Street
San Jose, CA 95113

? J
X

\G

Beth Labson Freeman
District Judge
U.S. District Court
for Northern California
280 S. First Street
San Jose, CA 95113

D. Lowell Jensen
Retired District Judge
U.S. District Court
for Northern California
280 S. First Street
San Jose, CA 95113

Terrence W. Boyle
Chief Judge
U.S. District Court
for Eastern North Carolina
306 E. Main Street
Elizabeth City, NC 27909

Joseph C. Spero
Chief Magistrate Judge
U.S. District Court
for Northern California
45.0 Golden Gate Avenue
San Francisco, CA 94102

Susan van Keulen
Magistrate Judge
U.S. District Court
for Northern California
280 S. First Street
San Jose, CA 95103

Susan Y. Soong
Clerk
U.S. District Court
for Northern California
450 Golden Gate Avenue
San Francisco, CA 94102

Alex G. Tse
Magistrate Judge
U.S. District Court
for Northern California
450 Golden Gate Avenue
San Francisco, CA 94102

Brian J. Stretch
Former U.S. Attorney
for Northern California
450 Golden Gate Avenue
11th Floor
San Francisco, CA 94102

Barbara J. Valliere
Assistant U.S. Attorney
450 Golden Gate Avenue
11th Floor
San Francisco, CA 94102

Daniel Kaleba
Assistant U.S. Attorney
450 Golden Gate Avenue
11th Floor
San Francisco, CA 94102

Shiao Lee
Assistant U.S. Attorney
450 Golden Gate Avenue
11th Floor
San Francisco, CA 94102

Maia Perez
Assistant U.S. Attorney
450 Golden Gate Avenue
11th Floor
Sam Francisco, CA 94102

Donald M. O’Keefe
U.S. Marshal
for Northern California
450 Golden Gate'Avenue
Room 20-6888
San Francisco, CA 94102

Robert D. Pettit
Former Acting U.S. Marshal
for Eastern North Carolina
310 New Bern Avenue
Room 744
Raleigh, NC 27611

Marc A. Harwell
Deputy U.S. Marshal
U.S. Marshals Service
for Northern California
450 Golden Gate Avenue
Room 20-6888
San Francisco, CA 94102

Chris Yamaguchi
Court Security Officer
U.S. Marshals Service
for Northern California
450 Golden Gate Avenue
Room 20-6888
San Francisco, CA 94102

Mary Guttoruson
Court Security Officer
U.S. Marshals Service
for Northern California
450 Golden Gate Avenue
Room 20-6888
San Francisco, CA 94102

-2-

J. C. Holland
Complex Warden
Federal Correctional Complex
Old NC Highway 75
Butner, NC 27509

T. Smith
Warden
Federal Medical Center
Old NC Highway 75
Butner, NC 27509

A.W. Rupska
Associate Warden
Federal Medical Center
Old NC Highway 75
Butner, NC 27509

L. Wheat
Chief Forensic Psychologist
Federal Medical Center
Old NC Highway 75
Butner, NC 27509

R. Koch
Forensic Psychologist
Federal Medical Center
Old NC Highway 75
Butner, NC 27509

Joseph S. Zonno
Forensic Psychologist
Federal Medical Center
Old NC Highway 75
Butner, NC 27509

L. Graddy
Staff Psychiatrist
Federal Medical Center
Old NC Highway 75
Butner, NC 27509

Charles L. Griffin
Case Manager
Federal Medical Center
Old NC Highway 75
Butner, NC 27509

J. Wiggins
Counselor
Federal Medical Center
Old NC Highway 75
Butner, NC 27509

James McNair Thompson
Court Appointed Attorney
P.O. Box 636
Los Gatosr_CA 5-5031
I further certify that all parties required to be served have been served.
I declare under penalty of perjury that the forgoing is true and correct.
Executed on December 18, 2020.

Kuang-Bao P. Ou-Young
Petitioner Pro Se

-3-

